No. 20-1704

IN THE
SUPREME COURT of the UNITED STATES

RONRICO SIMMONS, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit
BRIEF OF AMICUS CURIAE RIGHTS BEHIND BARS
CERTIFICATE OF SERVICE
I hereby certify that on July 9, 2021, one (1) copy of the BRIEF OF AMICUS
CURIAE RIGHTS BEHIND BARS IN SUPPORT OF PETITIONER in the abovecaptioned case was served, via first-class and electronic mail on the following:
Counsel for Petitioner:

Counsel for Respondent:

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
neal.katyal@hoganlovells.com

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

/s/ Oren Nimni

OREN NIMNI
Counsel of Record
RIGHTS BEHIND BARS
416 Florida Avenue NW, #26152
Washington, D.C. 20001
(202) 540-0029
oren@rightsbehindbars.org
Counsel for Amicus Curiae
July 9, 2021

